IN THE SUPREME COURT OF THE UNITED STATES
flitofLST

TERM, 20

^TsdlZ.'? u)
auLECL
PETITIONER
VS.

NO.

-5tbt£ or
RESPONDENT

PROOF OF SERVICE
I,

i. Lu/itodo swear or declare that on this date, fld&UrToftf,20ZO, as required by

Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FORA WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and address of those served are as follows:

I declare under penalty of perjury that the foregoing is true and correct.
Executed on fld&tKT£4,2050.
J,

2o

---------

